BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Advancing American Freedom as Amicus Curiae
Supporting Petitioners in 20-1088, David and Amy
Carson, as Parents and next Friends of O.C., and Troy
and Angela Nelson, as Parents and next Friends of
A.N. and R.N. v. A. Pender Makin, in her official
capacity as Commissioner of the Maine Department of
Education, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 10th day of September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org
Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www. beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Matthew J. Sheehan
Counsel of Record
Advancing American Freedom, Inc.
801 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
Matt@advancingamericanfreedom.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'

[seal]

JOHN D. GALL.i\GHEA
Notary Public, State of Ohio
My Commission Expim s
~"! 1.':lY\ ' 1 \ '.;'1, 3
j

